May 5, 2020
BY ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Federal Communications Commission v. Prometheus Radio Project, No. 191231; and National Association of Broadcasters v. Prometheus Radio
Project, No. 19-1241

Dear Mr. Harris:
I represent the following Respondents in the above-referenced Petitions for Certiorari:
Prometheus Radio Project; Media Mobilizing Project; Free Press; Office of Communication,
Inc. of the United Church of Christ; National Association of Broadcast Employees and
Technicians Communications Workers of America; and Common Cause (collectively known
as the “Citizen Petitioners” in the proceedings below).
The Brief in Opposition for the 19-1231 Petition is now due May 20, 2020. The Brief in
Opposition for the 19-1241 Petition is now due May 22, 2020.
My clients anticipate filing one brief in opposition in response to both petitions, and
respectfully request a 62-day extension in Case No. 19-1231 and a 60-day extension in Case
No. 19-1241, through and including July 21, 2020. This extension is needed to allow time for
newly-engaged Supreme Court counsel to familiarize ourselves with the record and
coordinate with co-counsel and the many parties in the midst of COVID-19 pandemic-related
difficulties. Petitioners do not object to this request.

300 New Jersey Ave NW
Suite 900
Washington, DC 20001

T: (202) 868-6915
F: (202) 609-8410
Email: rdeutsch@deutschhunt.com
Website: www.deutschhunt.com

Respectfully submitted,

Ruthanne Mary Deutsch
Counsel of Record for Respondents Prometheus
Radio Project; Media Mobilizing Project; Free
Press; Office of Communication, Inc. of the
United Church of Christ; National Association of
Broadcast Employees and Technicians Communications Workers of America; and
Common Cause
Cc (via e-mail):

Noel J. Francisco, Solicitor General
Helgi C. Walker, Gibson Dunn & Crutcher LLP
David D'Alessandro, Stinson LLP
Sally A. Buckman, Lerman Senter
Jeetander Dulani, Pillsbury Winthrup Shaw Pittman
Craig Gilmore, Wilkinson Barker Knauer LLP
Jack Goodman David Oxenford, Wilkinson Barker Knauer LLP
Kevin King, Covington & Burling, LLP
Dennis Lane, Stinson Leonard Street LLP
David Mills, Cooley
David Oxenford, Wilkinson Barker Knauer LLP
Eve Klindera Reed, Wiley Rein LLP
Andrew Schwartzman

